DOE/IG-0461




               AUDIT
              REPORT


                               GROUNDWATER MONITORING
                                    ACTIVITIES AT
                                DEPARTMENT OF ENERGY
                                     FACILITIES




                                      FEBRUARY 2000




  U.S. DEPARTMENT OF ENERGY
 OFFICE OF INSPECTOR GENERAL
   OFFICE OF AUDIT SERVICES
                                                  February 22, 2000


MEMORANDUM FOR THE SECRETARY

FROM:                   Gregory H. Friedman (Signed)
                        Inspector General

SUBJECT:                INFORMATION: Report on "Groundwater Monitoring Activities at Department of
                        Energy Facilities"


BACKGROUND

As a result of activities associated with the production of defense-related nuclear materials, about 600 billion gallons
of groundwater have been contaminated at Department of Energy (Department) facilities located throughout the
United States. The majority of the contamination is located at the Hanford Reservation, Savannah River Site, Idaho
National Engineering and Environmental Laboratory, Los Alamos National Laboratory, Oak Ridge Reservation,
and Rocky Flats Environmental Technology Site. The contaminants include solvents, fuels, explosives, metals, and
radioactive materials.

To comply with groundwater regulations and to detect the release of contamination, the Department monitored
groundwater at 31 sites. Monitoring activities included well installation, sampling operations, and laboratory
analyses. These activities cut across several program offices; however, the Offices of Defense Programs and
Environmental Management were most involved. We estimated that the Department expended about $51 million
on these monitoring activities during Fiscal Year (FY) 1999 and expected to spend about $57 million in FY 2000.
Millions more will be spent since monitoring activities at Department locations are to continue for many years.
Given current and future Departmental expenditures for groundwater monitoring, this audit was initiated to
determine whether these activities were conducted in an economic manner.


RESULTS OF AUDIT

The audit disclosed that some Departmental sites had not adopted innovative technologies and approaches to
groundwater monitoring, specifically relating to well installation, sampling operations, and laboratory analyses.
Thus, groundwater monitoring activities were not being conducted as economically as possible. We found that
information on innovative techniques was not effectively disseminated, evaluated for applicability, and implemented
when appropriate. Furthermore, no single Headquarters organization was assigned overall responsibility for
ensuring that groundwater activities Departmentwide were as cost effective as possible. As a result, opportunities
to reduce operating costs by about $3.6 million annually and to improve groundwater monitoring efficiencies were
not realized.
                                                           -2-

We recommended that the Department designate a Headquarters organization to ensure that field elements are aware
of and utilize "best practices" in groundwater monitoring activities. Responsibilities should include, at a minimum,
assembling information on innovative technologies and expediting the adoption of such technologies at all Department
sites, if appropriate. This organization should also help facilitate the integration of groundwater activities at both the
facility and site level. While local preferences need to be recognized, the Department's facilities should avail
themselves of the "best practices" in groundwater monitoring procedures throughout the complex.

During the course of the audit, management officials informed the Office of Inspector General that the adoption of
some technologies was beyond the control of program managers; that technical analyses are needed to determine the
appropriateness of innovative technologies before final decisions are made; and that such judgments must be made
by qualified individuals with the approval of regulatory bodies. We recognized these constraints and, therefore,
placed final determinations on what economies should be implemented beyond the scope of this review.


MANAGEMENT REACTION

Management generally agreed with the findings and recommendations and indicated that corrective actions were
being taken or had been planned. However, this response did not specifically indicate which Headquarters
organization had been assigned overall responsibility for future Departmentwide groundwater monitoring activities.
See Appendix 3 of this report.


Attachment

cc: Deputy Secretary
    Under Secretary
Groundwater Monitoring Activities At Department of Energy Facilities




TABLE OF
CONTENTS



                    Overview

                    Introduction And Objective......................................................................1

                    Conclusions And Observations.................................................................1


                    Groundwater Monitoring Activities

                    Details Of Finding....................................................................................3

                    Recommendations And Comments.........................................................10


                    Appendices

                    1. Scope And Methodology..................................................................12

                    2. Related Reports................................................................................13

                    3. Assistant Secretary Comments..........................................................15
Overview

INTRODUCTION AND   The Department estimates that activities associated with the production of
OBJECTIVE          nuclear materials for use in defense related activities have contaminated
                   about 600 billion gallons of groundwater at facilities located throughout the
                   United States. The majority of the contam- ination is located at the Hanford
                   Reservation, Savannah River Site, Idaho National Engineering and
                   Environmental Laboratory, Los Alamos National Laboratory, Oak Ridge
                   Reservation, and Rocky Flats Environmental Technology Site. The
                   contaminants include solvents, fuels, explosives, metals, and radioactive
                   materials.

                   To comply with groundwater regulations and detect the release of
                   contaminants, the Department monitored groundwater quality at 31 sites.
                   Groundwater monitoring activities included well installation, sampling
                   operations, and laboratory analyses. Management and operating contractors
                   that carried out this work were administered by Department field offices.
                   Although these activities cut across several programmatic offices, the Offices
                   of Defense Programs and Environmental Management funded the
                   preponderance of the groundwater activities at the facilities reviewed. We
                   estimated that the Department expended about $51 million on these
                   monitoring activities during Fiscal Year (FY) 1999 and expected to spend
                   about $57 million in FY 2000. Millions more will be spent as monitoring
                   activities at Department locations are expected for many years in the future.

                   Prior Office of Inspector General (OIG), General Accounting Office, and
                   internal reviews identified problems with the Department's groundwater
                   monitoring activities. These reviews identified management problems related
                   to well-drilling technologies, groundwater monitoring activities, quality control
                   procedures for groundwater samples, and integration of groundwater
                   activities. A listing of OIG and other related reports is set forth in Appendix
                   2.

                   The objective of this audit was to determine whether the Department's
                   groundwater monitoring activities were being conducted in an economic
                   manner.


CONCLUSIONS AND    The Department's groundwater monitoring activities were not being
OBSERVATIONS       conducted as economically as they could have been since some sites had not
                   adopted innovative technologies and approaches to well installation, sampling



Page 1                                                           Introduction And Objective/
                                                              Conclusions And Observations
         operations, and laboratory analyses. This occurred in part because
         innovative groundwater monitoring techniques adopted by some sites had not
         been effectively disseminated, evaluated for applicability at other sites, and
         implemented. Furthermore, no single organization was assigned overall
         responsibility for groundwater activities Departmentwide or held accountable
         for program cost effectiveness. As a result, opportunities to reduce
         operating costs by about $3.6 million annually and improve groundwater
         monitoring efficiencies were not realized.

         To improve the cost effectiveness of groundwater activities, the Department
         should designate a Headquarters organization to ensure that field elements
         are aware of and utilize "best practices" in groundwater monitoring activities.
         Responsibilities should include, at a minimum, assembling information on
         innovative technologies and expediting the adoption of such technologies at
         other Department sites where appropriate. This organization should also
         help facilitate the integration of groundwater monitoring activities at facilities
         throughout the Department.

         In our opinion, the matters discussed in this report should be considered
         when preparing the yearend assurance memorandum on internal controls.


                                           ______(Signed)________
                                            Office of Inspector General




Page 2                                               Conclusions And Observations
Groundwater Monitoring Activities

Innovative Approaches    The Department can reduce the cost of its groundwater monitoring activities
Not Always Implemented   by implementing innovative approaches to well installation, sampling
                         operations, and laboratory analyses. A review of current practices disclosed
                         that some sites had adopted cost savings opportunities, while other sites had
                         not.

                                                          Well Installation

                         A review of FY 1999 well installation costs indicated that such costs ranged
                         from about $3,500 to $213,750 per well. Several factors that affected these
                         installation costs included depth, drilling methods, and construction materials.
                         When control of such factors was feasible and exercised, well installation
                         costs were reduced. Several examples were identified and are discussed
                         below.

                         Lawrence Livermore National Laboratory (Livermore) expended on average
                         about $40,857 for well installation while Lawrence Berkeley National
                         Laboratory (Berkeley), located about 38 miles away, expended about
                         $10,600 per well. Livermore spent substantially more because it
                         constructed wells with 5 to 12-inch diameter well casings. Berkeley, on the
                         other hand, constructed wells with 2-inch diameter casings. The smaller
                         diameter wells cost less since drilling time was reduced. Livermore officials
                         advised that the primary reason for installing larger diameter wells was
                         sampler preference. Berkeley also used inexpensive polyvinyl chloride
                         (PVC) casings in its wells.

                         The Nevada Test Site (Nevada) reduced its well installation costs by
                         controlling its drilling schedule. Initially, well drilling activities at the site were
                         shut down on the weekends. Subsequently, officials determined that savings
                         were possible if well drilling operations were continuous until drilling was
                         completed. This approach substantially reduced well installation costs by
                         eliminating shutdown and startup times. A Nevada Operations Office official
                         estimated total savings of $312,000 by using this approach for the six wells
                         scheduled to be drilled at the facility in FY 1999. In FY 1999 about 600
                         wells were planned to be drilled by the 31 Department sites.

                         Another indication that sites did not always implement cost-saving
                         technologies was illustrated in a 1994 Office of Environmental Management
                         study. The study reported opportunities for cost reductions related to
                         oversight of well installation activities, drilling services, construction materials,


Page 3                                                                                  Details Of Finding
         program management, and regulatory strategy. Because of restaffing and
         mission changes initiated in FY 1995, only some recommendations from the
         study to improve operations and reduce costs were implemented.

                                       Sampling Operations

         As many as six different techniques were used across the Department to
         collect groundwater samples. Many program activities used the more costly
         and traditional three-well purging method to collect samples. Some sites,
         however, used innovative and less costly methods such as the low-volume
                                                            ©
         sampling (micropurging) method or the Easy Pump . Further, at the sites
         visited, sampling frequencies varied from every 14 days to once every 3
         years. As a result, sampling costs varied by thousands of dollars depending
         on the methodology and the frequency of sampling.

         Sampling Techniques

         The three-well volume purging sampling technique was the choice used at
         many sites. This technique, the most expensive, required purging volumes of
         at least three well casings of water from the well before a sample was
         collected. Because of the potential for contaminants, this wastewater often
         required treatment that was costly. For example, Idaho National Engineering
         and Environmental Laboratory (Idaho) officials estimated it would cost about
         $67,500 to treat 900 gallons of wastewater ($75 per gallon) generated
         through FY 2000 using this technique.1

         Two alternatives to the three-well volume purging sampling methods required
         substantially less purging and therefore less wastewater. Officials at one site
         estimated that the amount of wastewater was reduced by 98 percent with
                                                              ©
         micropurging. Another alternative, the Easy Pump method, required no
         purging prior to sampling. Both methods reduced labor hours required for
         well sampling by as many as 48 hours in some cases. It was estimated that
         the average labor cost for sampling was $60 per hour. Thus the reduction in
         labor time could reduce sampling costs by about $3,000 per well.
         Additionally, sampling reliability was not affected using these alternative
         methods.


         ______________________________
         1
           Efforts to reduce these costs are being explored with state and Federal regulators.




Page 4                                                                   Details Of Finding
         Some program activities at the same facility also used different methods to
         collect samples. For example, at the Oak Ridge Reservation (Oak Ridge),
         Defense Programs and Environmental Management funded activities used the
         micropurging method to collect samples, while the Office of Science activity
         used the three-well volume purging method. According to Oak Ridge
         officials, sampling time using the micro-purging method required an average
         of 45 minutes as compared to as much as 48 hours using the traditional
         three-well purging method. Additionally, using the micropurging method
         reduced the volumes of wastewater generated at one well from 182 to 3
         gallons and reduced operating costs by about $200,000 annually. After
         discussing these differences with Office of Science officials at Oak Ridge, we
         were advised that micropurging would be considered in the future.

         Contrasts also existed at two Department sites operated by the University of
                                                                               ©
         California. Livermore developed and used the patented Easy Pump method
         to collect samples. This method was believed to be more cost effective than
         the micropurging method since it produced even less wastewater and
         required considerably less sampling time. Further, sampling reliability was
         not affected. Despite the economies available from either of the other two
         methods, Berkeley continued to use the traditional three-well volume purging
         method for all its sampling because of personal preferences relating to
         sample reliability. Livermore was the only site in the Department complex
         that used the Easy Pump© technique.

         Sampling Frequency

         Sampling frequencies, which significantly impacted sampling costs, varied
         from bi-weekly to once every 3 years. No general rule existed governing
         sampling frequency. In most cases, the frequency schedule for collecting
         samples was determined and agreed upon by the Department and other
         Federal agencies and state regulators. However, over time and with
         appropriate approval, sampling frequencies could be adjusted to reduce
         costs depending on factors such as the stability of sample readings. A
         scientific computerized methodology to aid in adjusting sampling frequencies
         was available; however, this technology was used infrequently. Moreover, at
         least one site continued to sample in accordance with original frequency
         schemes even though there was no evidence of contamination. Such
         sampling frequency may not have been necessary.




Page 5                                                           Details Of Finding
         In 1992 Livermore, with state approval, adjusted sampling frequency at
         many of its wells with the aid of the Cost-Effective Sampling (CES)
         methodology. This methodology was an algorithm program that performed a
         computer-based trend analysis to help determine proper sampling frequency.
         Based on CES information, Livermore reduced the number of samples taken
         by 40 percent and realized annual savings of $390,000 in sampling, data
         management, and analysis.

         Although the CES approach was available to all Department sites, we found
         no other instances where it was actively used to adjust sampling frequencies.
         The majority of sites advised that professional judgment was used to make
         decisions regarding sampling frequencies. In the case of the Naval Reactors
         Facility at Idaho, no adjustments had been made in sampling frequencies in
         spite of the fact that no contaminants had been detected in the samples. This
         activity sampled all its wells quarterly and had done so since the wells were
         installed. When questioned, officials advised that they would consider
         changing the sampling frequency next year. In FY 1999 the Naval Reactors
         Facility at Idaho spent about $95,000 for sampling and laboratory analyses
         and expected to spend a similar amount in FY 2000. Adjusting sampling
         frequencies could save some portion of the FY 2000 expenditures. Officials
         at two other sites also advised that the CES approach could be useful in
         determining sampling frequencies.

                                   Laboratory Analyses

         Average fees for sampling and laboratory analysis ranged from $349 to
         $8,760 per well. The primary reasons for such variances were the sampling
         frequency and the number and type of contaminants to be tested for in each
         sample; however, decisions regarding the procurement of laboratory services
         also impacted these costs. In some instances, these decisions did not appear
         to be the most economical.

         For example, Nevada used an onsite laboratory to perform sample analyses
         even though a cost comparison showed that these services were substantially
         higher than offsite services. Specifically, a cost comparison completed by
         the contractor determined that the weighted average cost for a sampling
         analysis was $196 for the onsite laboratory, compared to $134 for the offsite
         laboratory. Had Nevada used offsite services, direct analyses costs could
         have been reduced by over $300,000 annually. Nevada officials advised
         that the decision to use onsite services was based in part on the desire to
         maintain the capability onsite. Similarly, one program organization at Oak
         Ridge competitively procured its laboratory analysis services through its
Page 6                                                           Details Of Finding
                         Sample Management Office. Two other program organizations at the same
                         facility, on the other hand, procured laboratory analysis services from the
                         onsite lab even though its costs were higher. Conversely, Argonne National
                         Lab-West at Idaho initially procured analysis services through the Sample
                         Management Office but achieved about $50,000 in savings after procuring
                         laboratory services independently.

                         In another example, Livermore competitively procured analysis services from
                         offsite laboratories but limited the selection to those laboratories within a
                         100-mile radius of the site. According to officials, this limitation was
                         necessary to keep samples containing volatile organic compounds cold prior
                         to testing. We noted that other sites used laboratories well beyond 100
                         miles by packing their samples in dry ice and shipping overnight. Geographic
                         constraints may exclude more cost-competitive laboratories.
                                              __________________________

                         The OIG recognized that some of the cost variances were beyond the
                         control of program managers; however, it appeared that many of the more
                         economical technologies were adaptable to other sites. Officials at the sites
                         visited agreed that some technologies could be implemented. In regard to
                         laboratory analyses of samples, we were advised that the number of offsite
                         laboratories has been decreasing over the last 2 years. The effect of this
                         change was not yet clear. However, quality and price was expected to
                         increase. The OIG also recognized that further management study and
                         technical analyses are needed to address analytic concerns and determine the
                         appropriate use of innovative technologies before final decisions are made.
                         These types of decisions require the exercising of technical judgments by
                         qualified individuals possessing scientific knowledge and the approval of
                         regulatory reviewers. Therefore, final determinations on what economies
                         should be implemented by the Department were beyond the scope of this
                         review.


Groundwater Monitoring   Federal regulations require the Department, as owner and operator of
Requirements             hazardous waste treatment, storage and disposal facilities, to monitor
                         groundwater at its facilities to ensure compliance with regulations and detect
                         the release of contaminants. Department of Energy Order 5400.1 provides




Page 7                                                                            Details Of Finding
                         policy and guidance on how to fulfill these requirements and establish a
                         Groundwater Protection Management Program. The Order prescribes that
                         such a program be established to correct existing problems, minimize risks to
                         the environment, and anticipate problems before they occur. This Order also
                         provides that efforts to meet environmental obligations be carried out
                         consistently across the complex and among all field organizations and
                         programs.

                         Department Order 413.1 requires that all operations be conducted in a cost-
                         effective manner. Federal resources are to be managed effectively and
                         efficiently to achieve intended program results and are to be protected from
                         waste, fraud, and mismanagement. Further, the Government Performance
                         and Results Act requires the creation of long-range strategic plans that define
                         organizations' missions and form the basis for performance measurement.



Overall Responsibility   The Department's groundwater monitoring activities were not conducted in
Not Assigned             the most economic manner because no single organization at each facility and
                         Headquarters was assigned overall responsibility and held accountable for
                         program cost effectiveness. Specifically, no organization had been assigned
                         responsibility for collecting and disseminating information on cost saving
                         improvements from innovative groundwater monitoring techniques. Further,
                         no organization was responsible for analyzing and evaluating
                         Departmentwide groundwater monitoring data to identify trends in water
                         quality. Such information was needed to meet environmental and economic
                         obligations to be carried out across the Department complex.

                         At Headquarters, the Offices of Environment, Safety and Health and
                         Environmental Management were the primary programmatic organizations
                         involved with groundwater monitoring activities. Both had limited oversight
                         responsibilities and neither had been assigned overall responsibility for the
                         Department's groundwater monitoring activities. Environment, Safety and
                         Health's responsibility was limited to providing guidance on groundwater
                         monitoring policies to the field. Environmental Management focused
                         primarily on solving groundwater issues brought to their attention by sites
                         requesting assistance. Neither office had the authority to proactively
                         coordinate groundwater monitoring economies and activities in the field.
                         Furthermore, no organization had been assigned responsibility to collect and
                         analyze funding and other groundwater monitoring information.
                         Consequently, Department officials did not know the amount of funds
                         dedicated to groundwater activities.


Page 8                                                                            Details Of Finding
                   At the facility level, groundwater monitoring activities were not sufficiently
                   integrated, which caused activities to be less efficient and economical.
                   Several program activities at each facility funded and conducted groundwater
                   monitoring activities. While the goal at most facilities was to integrate all
                   activities, in some cases, these program offices acted independently of each
                   other. No one person or office had been given overall responsibility to
                   ensure the integration of groundwater monitoring activities.

                   For example, three program offices--Environmental Management, Defense
                   Programs, and Office of Science--conducted groundwater activities at the
                   Oak Ridge facility. While Environmental Management and Defense
                   Programs coordinated their activities to some extent, no one office was
                   assigned responsibility for the entire facility. We were advised by the Oak
                   Ridge Operations Office that the facility was working towards integrating all
                   groundwater activities. At Idaho one individual was designated to integrate
                   most portions of the Laboratory's groundwater activities. This integration
                   process, however, did not include the Argonne National Laboratory-West
                   and the Naval Reactor Facility. Further, Idaho officials advised that full
                   integration is not expected to be completed for 10 years. However, there is
                   coordination among all site activities.

                   During the audit we discussed the need for more centralized management of
                   groundwater activities at both the field sites and Headquarters. Site officials
                   agreed that a spokesperson was needed at the Headquarters level to
                   coordinate these activities, interface with the Environmental Protection
                   Agency, and to address budget matters pertaining to groundwater monitoring
                   activities. We also discussed the apparent need for a more viable method to
                   disseminate technical innovations and resolve different technical opinions.
                   We were advised that technical meetings were held periodically to present
                   innovations to their peers. However, these meetings were ad hoc in nature
                   and no followup of technology implementation was made.



Opportunities To   Savings and increased efficiencies in groundwater activities can be realized
Reduce Cost        by assigning overall responsibility for groundwater activities, implementing
                   innovative technologies where appropriate, and improving the decision
                   making process. The exact amount of Departmentwide savings that could be
                   realized by implementing identified cost saving improvements could not be
                   determined. However, we estimated that the Department could save about
                   $3.6 million annually by implementing innovative technologies relating to well


Page 9                                                                      Details Of Finding
                  installation, sampling operations, and laboratory analyses. For example, as
                  much as $300,000 could be saved if Nevada procured laboratory services
                  competitively. Another $3.3 million could be saved if the remaining sites
                  achieved a similar rate of savings as the sites visited. An additional one-time
                  savings of $67,500 could be realized if Idaho modified sampling techniques
                  at selected wells. Given that Departmentwide groundwater monitoring
                  activities are expected to continue for many years, millions of dollars in
                  additional savings may be possible. Nevertheless, such savings and benefits
                  will not be fully realized until groundwater monitoring responsibilities are
                  assigned at each facility and at the Headquarters level and innovative
                  technologies are effectively implemented.

RECOMMENDATIONS   We recommend that the Chair, Field Management Council:

                  1. Designate a Headquarters office to be responsible and accountable for
                     groundwater monitoring activities. This office should:

                          a.    Accumulate information on such activities as well installation,
                                sampling techniques and frequency, and laboratory analysis
                                costs that will be used to identify potential best practices. Data
                                on monitoring results and overall costs should also be collected
                                and used to develop trends in water quality.

                          b.    Communicate "best practices" to all sites and ensure they are
                                fully evaluated and implemented where appropriate.

                          c.    Establish a peer review group composed of experts from the
                                field and Headquarters to aid in the technical analysis and
                                adoption of best practices.

                          d.    Expedite the integration of groundwater monitoring activities at
                                Department facilities.

                  2. Direct Managers of field offices to:

                          a.    Give priority attention to integrating groundwater monitoring
                                activities at the facilities for which they have responsibility.




Page 10                                                 Recommendations And Comments
                    b.    Evaluate available innovative technologies for applicability at
                          each site and implement if appropriate.

                    c.    Re-evaluate the make or buy decisions for determining whether
                          the laboratory analyses of groundwater samples are being
                          performed on the most economical and effective basis in view
                          of the quality and quantity of laboratories throughout the
                          country.


MANAGEMENT   Management generally agreed with the findings and recommendations and
REACTION     indicated that corrective actions were being taken or had been planned. See
             Appendix 3 of this report.


AUDITOR      Actions taken and planned were generally responsive to the
COMMENTS     recommendations. However, the response did not specifically indicate which
             Headquarters organization had been assigned overall responsibility for
             Departmentwide groundwater monitoring activities and would be
             accountable for program cost effectiveness in the future. Such a designation
             is necessary to ensure the timeliness of technical judgments and regulatory
             approvals.




Page 11                                           Recommendations And Comments
Appendix 1

SCOPE         The audit was performed from January to November 1999 at Headquarters.
              Fieldwork was conducted at three sites at the Oak Ridge Reservation,
              Lawrence Livermore National Laboratory, Lawrence Berkeley National
              Laboratory, two sites at the Idaho National Engineering and Environmental
              Laboratory, and the Nevada Test Site.


METHODOLOGY   To accomplish the audit objective, we:

              •   analyzed budget and other data received from an Information Collection
                  Survey sent to all Department sites that perform groundwater monitoring;

              •   interviewed Environmental Management and Environment, Safety and
                  Health personnel at Headquarters that either currently or previously
                  participated in groundwater monitoring activities;

              •   interviewed field personnel specializing in groundwater monitoring; and

              •   reviewed laws and regulations related to groundwater monitoring.

              The audit was performed in accordance with generally accepted government
              auditing standards for performance audits. It included tests of internal
              controls and compliance with laws and regulations to the extent necessary to
              satisfy the audit objective. Accordingly, we assessed management controls
              to ensure the Department's activities were being conducted in an economic
              manner. Because our audit was limited, it would not necessarily have
              disclosed all internal control deficiencies that may have existed at the time of
              our audit. We did not conduct a reliability assessment of computer-
              processed data because only a very limited amount of such data was used
              during the audit. There were no performance measures specifically
              applicable to the audit objective. Environmental Management officials
              waived the exit conference.




Page 12                                                         Scope And Methodology
Appendix 2

                      REPORTS RELATED TO GROUNDWATER MONITORING


Since 1983, the Office of Inspector General, General Accounting Office, and Department of Energy program
offices had issued at least eight reports identifying opportunities for the Department to improve its groundwater
monitoring activities. Listed below is a synopsis of the issues addressed in those reports.

Office Of Inspector General Reports:

•   Audit of Richland Operations Office Site Characterization Program, (DOE/IG-0368, March 20, 1995).
    Richland agreed to have 80 percent of low-level waste sample analyses performed within 25 miles of Hanford
    which increased sample analysis costs by about $46 million. Economic analyses of the alternatives were not
    prepared as required.

    Audit of the Groundwater Remediation Plans at the Savannah River Site, (ER-B-96-02, June 11, 1996).
    The site did not have a Land Use Plan showing the intended future uses of land and groundwater. Without such
    a plan, groundwater in certain areas was classified at a higher cleanup level than might have been necessary.

•   Audit of Groundwater Monitoring at Hanford, (WR-B-97-03, November 11, 1996). Richland's
    groundwater program was mission essential but was not performed at the least cost to the Department. Work
    performed by the principle contractors overlapped, resulting in duplicative groundwater monitoring activities.

•   Audit of the Savannah River Site's Quality Control Program for Groundwater Sampling,
    (DOE/IG-0405, May 20, 1997). The contractor required more quality control analyses than necessary               to
ensure that groundwater sampling results were accurate and precise.

General Accounting Office Reports:

•   Federal and State Efforts to Protect Ground Water, (GAO/RCED 84-80, February 21, 1984). GAO
    concluded that a comprehensive national groundwater protection policy did not exist; however, six Federal
    laws addressed specific contamination problems. The extent of the problem was unknown because no
    comprehensive national database or monitoring program existed.

•   Nuclear Waste: Hanford's Well-Drilling Costs Can Be Reduced, (GAO/RCED-93-71, March 1993).
    Hanford site contractors had implemented many of the cost-savings measures to reduce well drilling costs
    included in a 1990 study, but other actions were still needed that included: (1) adopting, where appropriate,
    faster and less expensive well drilling technologies; (2) using the well-drilling program's work force more
    efficiently; and (3) centralizing the management of the well drilling program to improve its effectiveness.




Page 13                                                                                           Related Reports
•   Department of Energy: Information on the Tritium Leak and Contractor Dismissal at the Brookhaven
    National Laboratory, (GAO/RCED-98-26, November 4, 1997). Groundwater samples revealed
    concentrations of tritium that were twice the allowable federal drinking water standards. Officials concluded
    that tritium had been leaking from a reactor storage pool for as long as 12 years without the Department's or
    Brookhaven National Laboratory's knowledge. The resulting controversy about both Brookhaven National
    Laboratory's handling of the tritium leak and perceived lapses in the Department's oversight led to termination
    of the contractor in May 1997.

Office Of Environmental Management Study:

•   Well Installation and Abandonment Study: Key Observations and Summary Report; November 1994.
    Significant cost variability occurred within the Department of Energy system in well installation costs.




Page 14                                                                                          Related Reports
Appendix 3




Page 15      Assistant Secretary Comments
                                                                                IG Report No. DOE/IG-0461

                                      CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We wish to
make our reports as responsive as possible to our customers' requirements, and, therefore, ask that you consider
sharing your thoughts with us. On the back of this form, you may suggest improvements to enhance the
effectiveness of future reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the audit
   would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this report to
   assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more clear to
   the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this report
   which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions about
your comments.

Name _____________________________               Date __________________________

Telephone _________________________              Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                                        Office of Inspector General (IG-1)
                                              Department of Energy
                                             Washington, DC 20585

                                           ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General, please
contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost effective
 as possible. Therefore, this report will be available electronically through the Internet at the following alternative
                                                        address:

                       U.S. Department of Energy Office of Inspector General, Home Page

                                               http://www.ig.doe.gov

                        Your comments would be appreciated and can be provided on the
                               Customer Response Form attached to the report.
